PROOF OF SERVICE

I hereby declare under penalties of perjury that on Ilji/Jxt>

I mailed a true and correct copy of the

attached Motion to Proceed In Forma Pauperis, and the attached Petition For A Writ of Certiorari to:
Solicitor General of the United States Department ofJustice
950 Pennsylvania Avenue Room 5614
Washington, D. C. 20530-0001
The Solicitor General represents the United States of America the only other party to this action
besides the Petitioner, therefore all parties required to be served have been served. Said service was made
by First Class United States Mail via a Prison System of mailing legal mail which keeps a record of all
outgoing legal mail. Under penalties of perjury I swear the aforementioned is true and correct.
Signedjby: Mr. David A. Vogel, Petitioner

Dated:

Qe^C.

H\

9

